No. ______
In the

Supreme Court of the United States
__________________
BOCILLA ISLAND SEAPORT, INC., formerly
HIGHPOINT TOWER TECHNOLOGY, INC.,
Petitioner,
v.
COMMISSIONER OF THE INTERNAL REVENUE SERVICE,
Respondent.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

DAVID D. AUGHTRY
Counsel of Record
CHAMBERLAIN, HRDLICKA,
WHITE, WILLIAMS & AUGHTRY
191 Peachtree Street, 46th FL
Atlanta, Georgia 30303-1747
Phone: (404) 659-1410
david.aughtry@chamberlainlaw.com
Attorney for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
This Tax Court partner-level penalty jurisdiction
case raises these four interrelated issues:
1) Should “each partner’s outside basis [in his
partnership interest]... be adjusted at the partner level
before the [basis-specific] penalty can be imposed”
under the implicated statutes Justice Scalia reconciled
in United States v. Woods, 571 U.S. 31, 42 (2013)?
2) Should a partner’s cost basis in Euros (which the
partnership proceeding deemed that the partner
acquired directly) “be adjusted at the partner level
before the [basis] penalty can be imposed”?
3) Does the “plain meaning” of the implicated
statutes reverse that sequence (imposition of basis
penalty before determination of basis) and require
separate additional proceedings, despite the reading of
those statutes in Woods, the acknowledged algebraic
absurdity, and the overarching legislative purpose of
eliminating duplicative proceedings?
4) Where, as here, a separate partner-level Tax
Court deficiency proceeding is required to address the
impact of partner-level facts on the partner’s basis in
the Euros reported solely on the partner’s return, does
that jurisdiction permit the partner-level reasonable
cause facts that preclude the IRS imposing the partnerlevel, basis-specific penalty?

ii
RULE 14(b) STATEMENT
The parties to the proceeding are Petitioner/
Appellant, Bocilla Island Seaport, Inc., formerly
Highpoint Tower Technology, Inc., and Respondent/
Appellee, the Commissioner of the Internal Revenue
Service.
RULE 29.6 CORPORATE DISCLOSURE
STATEMENT
Bocilla Island Seaport, Inc., formerly Highpoint
Tower Technology, Inc., is wholly owned by Bokeelia
Realty, LLC, a limited liability company formed under
the laws of the State of Florida.
PROCEEDINGS BELOW
A list of all proceedings in trial and appellate courts
directly related to this case is as follows:
Highpoint Tower Technology, Inc. v. Commissioner
of the Internal Revenue Service, United States Tax
Court, Docket No. 2828-16 (July 17, 2017)
Highpoint Tower Technology, Inc. v. Commissioner
of the Internal Revenue Service, United States Court
of Appeals for the Eleventh Circuit, No. 18-10394BB (July 24, 2019)

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
RULE 14(b) STATEMENT . . . . . . . . . . . . . . . . . . . . ii
RULE 29.6 CORPORATE DISCLOSURE
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
PROCEEDINGS BELOW . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES OR OTHER PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . 11
A. CONGRESS SOUGHT TO STREAMLINE –
NOT MULTIPLY – PROCEEDINGS. . . . . . . . . 13
B. “EACH PARTNER’S OUTSIDE BASIS ... MUST
BE ADJUSTED AT THE PARTNER-LEVEL
BEFORE THE PENALTY CAN BE IMPOSED.”
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
C. THE DICKENSIAN ABSURDITY DOES NOT
CURE THE ALGEBRAIC ABSURDITY. . . . . . 24
D. TRADITIONAL TAX COURT JURISDICTION
CONTINUES TO COVER A PARTNER
PENALTY RELATING TO PARTNER ITEMS. 27

iv
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(July 24, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States Tax Court
(November 2, 2017). . . . . . . . . . . App. 33
Appendix C Order in the United States Tax Court
(July 17, 2017) . . . . . . . . . . . . . . App. 37
Appendix D 26 U.S.C. § 6213(a) . . . . . . . . . . . App. 41
26 U.S.C. § 6214(a) . . . . . . . . . . . App. 43
26 U.S.C. § 6230(a) . . . . . . . . . . . App. 44
26 U.S.C. § 6330(a)-(d) . . . . . . . . App. 47
26 U.S.C. § 6662 (1999) . . . . . . . App. 53
26 U.S.C. § 6664 (1999) . . . . . . . App. 63

v
TABLE OF AUTHORITIES
CASES
Flora v. United States,
362 U.S. 145 (1960). . . . . . . . . . . . . . . . . . . . . . . 27
Highpoint Tower Technology, Inc. v. Commissioner,
931 F.3d 1050 (11th Cir. 2019). . . . . . . . . . . . . . 24
Jade Trading LLC v. United States, 80 Fed. Cl. 11
(2007), aff’d in part, rev’d in part and remanded,
598 F.3d 1372 (Fed. Cir. 2010), and
supplemented, 98 Fed. Cl. 453 (2011), aff’d, 2012
WL 178382 (Fed. Cir. Jan. 12, 2012) . . . . . . . . . . 3
Jade Trading, LLC v. United States, 98 Fed. Cl. 453
(2011); aff’d, 2012 WL 178382 (Fed. Cir. Jan. 12,
2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Meruelo v. Commissioner,
132 T.C. 355 (2009), aff’d, 691 F.3d 1108
(9th Cir. 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Pearson v. Commissioner,
149 T.C. 424 (2017) . . . . . . . . . . . . . . . . . . . . . . . 28
United States v. American Trucking Ass’ns,
310 U.S. 534 (1940). . . . . . . . . . . . . . . . . . . . . . . 25
United States v. Woods,
571 U.S. 31 (2013). . . . . . . . . . . . . . . . . . . . passim
UNITED STATE CODE
26 U.S.C. § 732(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
26 U.S.C. § 6212 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
26 U.S.C. § 6213 . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 23

vi
26 U.S.C. § 6213(a). . . . . . . . . . . . . . . . . . . 2, 8, 10, 28
26 U.S.C. § 6214(a). . . . . . . . . . . . . . . . . . . . . 2, 10, 28
26 U.S.C. § 6221 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
26 U.S.C. § 6226(f) . . . . . . . . . . . . . . . . . . . . . . . . . . 18
26 U.S.C. § 6230(a). . . . . . . . . . . . . . . . . . . . . . . . . . 19
26 U.S.C. § 6230(a)(2) . . . . . . . . . . . . . . . . . . . . . . . 18
26 U.S.C. § 6230(a)(2)(A)(i) . . . . . . . . . . . . . . . . . . . 10
26 U.S.C. § 6230(b). . . . . . . . . . . . . . . . . . . . . . . . . . 26
26 U.S.C. § 6330(b). . . . . . . . . . . . . . . . . . . . . . . . . . 26
26 U.S.C. § 6330(d). . . . . . . . . . . . . . . . . . . . . . . . . . 26
26 U.S.C. § 6330(d)(1) . . . . . . . . . . . . . . . . . . . . . . . 26
26 U.S.C. § 6502 . . . . . . . . . . . . . . . . . . . . . . . . . 24, 26
26 U.S.C. § 6662 . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 28
26 U.S.C. § 6662(b)(3) . . . . . . . . . . . . . . . . . . . . . . . 15
26 U.S.C. § 6662(e) . . . . . . . . . . . . . . . . . . . . . . . 11, 20
26 U.S.C. § 6662(e)(1)(A) . . . . . . . . . . . . . . . . . . . . . 15
26 U.S.C. § 6662(h) . . . . . . . . . . . . . . . . . 9, 15, 20, 21
26 U.S.C. § 6664(c) . . . . . . . . . . . . . . . . 2, 8, 11, 16, 20
26 U.S.C. § 6664(c)(1). . . . . . . . . . . . . . . . . . . . . . . . 21
26 U.S.C. § 6665 . . . . . . . . . . . . . . . . . . . . . . 10, 23, 28
26 U.S.C. § 7442 . . . . . . . . . . . . . . . . . . . . . . . . . 23, 28
26 U.S.C. § 7482(a). . . . . . . . . . . . . . . . . . . . . . . . . . 10
26 U.S.C. § 7482(a)(3) . . . . . . . . . . . . . . . . . . . . . . . 10

vii
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1346(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . 5
TAX COURT RULES
TAX COURT RULE 55 . . . . . . . . . . . . . . . . . . . . . . . . . . 9
TAX COURT RULE 190(b) . . . . . . . . . . . . . . . . . . . . . . 10
OTHER AUTHORITIES
H.R. Conf. Rep. 97-760 (1982) . . . . . . . . . . . . . . . . . 13
IRS Publication 5338 . . . . . . . . . . . . . . . . . . . . . . . . 12
Tax Equity and Fiscal Responsibility Act of 1982
(Pub. L. 97-248: “TEFRA”) . . . . . . . . . . . . . . 12, 14
Tax Treatment of Partnership Items Act of
1982 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 14

1
PETITION FOR A WRIT OF CERTIORARI
Bocilla Island Seaport, Inc., formerly Highpoint
Tower Technology, Inc. (“Highpoint”), respectfully
petitions for a writ of certiorari to review the opinion
and judgment of the United States Court of Appeals for
the Eleventh Circuit.
OPINIONS BELOW
The opinion of the Eleventh Circuit is published at
931 F.3d 1050 (11th Cir. 2019), and is reproduced in
the Petition Appendix A (“Pet. App.”) at pp. App. 1App. 32. The November 2, 2017 Order of the United
States Tax Court is unpublished. It was entered at
Docket No. 2828-16 on November 2, 2017 and is
reproduced at Pet. App. B, pp. App. 33-App. 36. The
July 17, 2017 Order of the United States Tax Court is
unpublished. It was entered at Docket No. 2828-16 on
July 17, 2017 and is reproduced at Pet. App. C,
pp. App. 37-App. 40.
JURISDICTION
The Opinion of the Eleventh Circuit was entered on
July 24, 2019. This Court has jurisdiction pursuant to
28 U.S.C. § 1254.

2
STATUTES OR OTHER PROVISIONS
INVOLVED
The following statutes are located in the Appendix
at Appendix D:
26 U.S.C. § 6213(a)
26 U.S.C. § 6214(a)
26 U.S.C. § 6230(a)
26 U.S.C. § 6330(a)-(d)
26 U.S.C. § 6662 (1999)
26 U.S.C. § 6664(c) (1999)

3
INTRODUCTION
Twenty years ago, Highpoint’s advisors persuaded
the company to acquire a set of Euro options.
Highpoint contributed the purchased option to
Arbitrage, which traded in currency derivatives. When
the Euro declined, Highpoint withdrew from Arbitrage,
received Euros in redemption of its partnership
interest, and then sold those Euros.
Highpoint reported the loss on those Euros on its
return based on the advice of its long-time lawyer and
CPA who relied on the exhaustive research performed
by an international tax law firm headquartered in New
York City, Curtis Mallet-Prevost. That research
turned on what the Court of Claims and Federal
Circuit determined in the lead case to be the then
prevailing authority on the treatment of basis.1
However, those courts then disregarded the
transactions based on the economic substance doctrine.
After the final appeal in the lead case, Arbitrage
accepted the result, conceded the partnership issues,
and explicitly reserved the partner-level defenses for
its partners. In the partnership proceeding, Arbitrage
was disregarded and Highpoint was deemed to have
directly acquired the Euros distributed to it.
The IRS then issued a Partner-Level Deficiency
Notice to Highpoint – disallowing its Euro basis and
resulting loss, asserting a deficiency, and applying the
basis-specific penalty to its reported Euro basis.
1

Jade Trading LLC v. United States, 80 Fed. Cl. 11, 34 (2007),
aff’d in part, rev’d in part and remanded, 598 F.3d 1372, 1380
(Fed. Cir. 2010), and supplemented, 98 Fed. Cl. 453, 463 (2011),
aff’d, 2012 WL 178382 (Fed. Cir. Jan. 12, 2012).

4
Highpoint petitioned that Deficiency Notice to the
Tax Court. Four days later, the IRS assessed and
demanded payment of the deficiency and basis-specific
penalty, even though they were still pending in Tax
Court. Highpoint moved to restrain that collection. The
IRS and Tax Court agreed the deficiency should be
restrained because proof of the partner-level basis facts
required the pending Tax Court partner-level
proceeding. But the IRS persuaded the Tax Court and
the Eleventh Circuit that the Tax Court lacked partnerlevel jurisdiction over the partner-level, basis-specific
penalty in the same partner-level proceeding that would
determine that same basis.
The Eleventh Circuit agreed with Highpoint that the
sequence of imposing a basis-specific penalty before
determining the basis rendered an algebraic absurdity.
The Court, however, concluded that the algebraic
absurdity was acceptable under the “plain meaning”
doctrine and pointed to Highpoint’s ability to file a
Collection Due Process case in Tax Court where
Highpoint could ultimately press its partner-level
reasonable-cause defense to the basis-specific penalty in
that new case. Like the Tax Court plenary jurisdiction
statutes and those instances when the IRS asserts
partner-level penalty jurisdiction, the CDP response
once again heralds that Tax Court partner-level penalty
jurisdiction. Rather than start a new duplicative CDP
administrative proceeding and ultimately the further
delayed CDP Tax Court proceeding, Highpoint badly
needs to finally resolve this 20 year old dispute over the
inextricably intertwined basis and basis-specific penalty
once and for all in this one partner-level proceeding
under the practical sequence embraced by Justice Scalia.

5
STATEMENT OF THE CASE
On November 6, 2015, the Commissioner of the
Internal Revenue Service issued his Notice of
Deficiency (“Partner-Level Notice”) to Highpoint
alleging a tax deficiency and penalty that dated back to
its taxable year ended December 31, 1999. That Notice
asserted that Highpoint owed more than $5 million in
tax plus a penalty of more than $2 million for a
transaction that occurred nearly 16 years before. With
interest, the government sought more than $20 million
from Highpoint. Because of the significant losses
Highpoint suffered in the 2008 Recession, it did not
have the financial ability to pay the entire deficiency,
interest, and penalty, and pursue a claim for refund in
the United States District Court as contemplated by 28
U.S.C. § 1346(a)(1). Highpoint’s only remedy was to
pursue litigation in the prepayment forum offered by
the United States Tax Court.
During the taxable year ended December 31, 1999,
Highpoint’s professional advisors had encouraged the
company to invest in foreign currency options. As part
of that transaction, Highpoint purchased a Euro option
from AIG International (“AIGI”) while simultaneously
selling a Euro option to AIGI. Highpoint then
contributed both options to Arbitrage Trading, LLC
(“Arbitrage”) along with $62,500.00 in cash. In
accordance with the then prevailing law, Highpoint
reported its basis in its partnership interest in
Arbitrage (“outside basis”) based on its cash
contribution and the fair market value of the
purchased Euro option while disregarding the potential
obligation under the Euro option it sold to AIGI as a
contingent liability.

6
During 1999, Highpoint withdrew from Arbitrage
and received a distribution of Euros in redemption of
its partnership interest. Highpoint attributed its
outside basis in Arbitrage to those Euros in accordance
with 26 U.S.C. § 732(a). Highpoint confirmed with
both its longtime trusted lawyer and CPA, as well as a
sophisticated international law firm and CPA firm that
its computation of both its outside basis in Arbitrage
and its consequent basis attributed to the Euros it
received in redemption of its interest was the proper
treatment. Highpoint sold the Euros it received from
Arbitrage and reported a loss on its U.S. Corporation
Income Tax Return (“Form 1120”) for the taxable year
ended December 31, 1999.
On October 13, 2005, the IRS issued a Notice of
Final Partnership Administrative Adjustments
(“FPAA”) to Arbitrage asserting that it lacked economic
substance, was a sham for federal income tax purposes,
and that “all transactions engaged in directly by the
partnership … are treated as engaged in directly by its
purported partners.”
Arbitrage challenged the
adjustments in the FPAA as part of a partnership-level
proceeding in the United States Court of Federal
Claims.
That partnership-level proceeding was
resolved via an Amended Judgment filed by the Clerk
of Court on October 3, 2014.2

2

The results of Jade Trading, LLC v. United States, 98 Fed. Cl.
453 (2011); aff’d, 2012 WL 178382 (Fed. Cir. Jan. 12, 2012), were
dispositive on the adjustments at issue in the partnership-level
proceeding for Arbitrage. The only remaining issue was the
accuracy-related penalties asserted on those adjustments. That
issue was resolved by United States v. Woods, 571 U.S. 31 (2013).

7
The October 3, 2014 Amended Judgment sustained
all of the adjustments contained in the FPAA issued to
Arbitrage for the taxable year 1999, and all
explanations contained in Exhibit A to the FPAA were
conceded to be correct. Additionally, the Amended
Judgment upheld penalties asserted in the FPAA, and
stated that such penalties were applicable to
“underpayments of tax attributable to adjustments to
contribution amounts in excess of the corrected basis.”
The Amended Judgment addressed solely partnership
matters, and confirmed that the “partners of
[Arbitrage] reserve their right to pursue partner-level
defenses to [the] penalties.”
Based on the adjustments sustained in the
Amended Judgment, the IRS issued an “Affected Item
Statutory Notice of Deficiency”. That Notice asserted
that changes needed to be made to Highpoint’s return
based on the adjustments sustained in the partnershiplevel proceeding for Arbitrage. The Partner-Level
Notice adjusted Highpoint’s outside basis in Arbitrage,
which attached to the Euros it received in redemption
of its partnership interest, and asserted that
Highpoint’s adjusted basis in the Euros must be
calculated “without reference to Arbitrage” and that
such basis was “limited to their purchase price or
[Highpoint’s] purported cash contribution to
[Arbitrage].”
The Partner-Level Notice reduced
Highpoint’s basis in the Euros to $0.00 and eliminated
a short-term capital loss claimed on its tax return
related to the sale of the Euros as well as a deduction
for professional fees. The Partner-Level Notice also
asserted a deficiency related to a partnership-level loss
incurred by Arbitrage during 1999.

8
The Partner-Level Notice asserted partner-level
penalties on the deficiency created by the adjustments
to Highpoint’s return. The IRS alleged Highpoint had
“not established substantial authority for the position
taken” and had “not shown that it had a reasonable
belief … that the position taken was more likely than
not the correct treatment” of the transactions related to
Arbitrage and the sale of the Euros. The Partner-Level
Notice imposed “a 40 percent penalty … on the
underpayment attributable to the gross valuation
misstatement of the adjusted basis in [Highpoint’s]
partnership interest in [Arbitrage] and the consequent
basis in the Euros sold or exchanged to which the basis
in the partnership attached.”3
In accordance with 26 U.S.C. § 6213(a), Highpoint
timely filed its Petition with the Tax Court disputing
the adjustments asserted in the Partner-Level Notice.
In its Petition, Highpoint disputed both the deficiency
and the penalty asserted in the Partner-Level Notice.
Highpoint contested the adjustments made in the
Partner-Level Notice and raised its defenses against
the 40 percent penalty under 26 U.S.C. § 6664(c).
Highpoint alleged the IRS had erred by failing to
recognize its partner-level good faith reasonable cause
defenses to the penalty, and the fact that it had relied
on its qualified professional advisors – defenses that
had been unavailable in the partnership-level
proceeding for Arbitrage.

3

The Notice also erroneously applied the 40 percent basis penalty
to the entire deficiency – including non-basis “affected items” such
as the disallowance of Highpoint’s fees.

9
Four days after filing its Petition, the IRS issued
Highpoint a Notice of Tax Due on Federal Tax Return
(“IRS Demand”) dated February 8, 2016. The IRS
Demand assessed the same tax due and the same 40
percent basis penalty pursuant to 26 U.S.C. § 6662(h)
asserted in the Partner-Level Notice. The IRS Demand
also sought interest for a total demand in excess of $20
million. Highpoint later received a Notice of Intent to
Levy informing Highpoint of the IRS’s intent to levy
Highpoint’s property to collect the amounts asserted in
the IRS Demand, as well as an additional failure-to-pay
penalty.
In response to the Notice of Intent to Levy,
Highpoint filed a Motion to Restrain Collection
pursuant to 26 U.S.C. § 6213 and TAX COURT RULE 55
to restrain the IRS from the improper collection of
taxes, penalties, and interest for 1999, to which the IRS
filed an Objection. On September 15, 2016, Highpoint
filed its Response to the Objection, and the IRS filed a
Motion to Dismiss and to Strike a Portion of the
Proposed Deficiency and the Entire Penalty.
On July 17, 2017, Judge Goeke issued his Order
granting Highpoint’s Motion in part and denying in
part and granting the IRS Motion with respect to the
penalty. Judge Goeke’s Order held that the Tax Court
had jurisdiction with respect to the capital gain income
and the disallowance of fees, but that it lacked
jurisdiction over the penalty. Highpoint filed a Motion
for Reconsideration of the July 17 Order, which Judge
Goeke denied. Highpoint timely filed its Notice of
Appeal to the United States Court of Appeals for the
Eleventh Circuit and paid its filing fee on February 1,
2018.

10
The Tax Court entered its Orders under the
authority of 26 U.S.C. §§ 6213(a) and 6214(a)4. Section
7482(a) grants the United States Court of Appeals
exclusive jurisdiction to review Tax Court decisions,
and 26 U.S.C. § 7482(a)(3) specifically recognizes a Tax
Court order “entered under authority of Section 6213(a)
and which resolves a proceeding to restrain …
collection … as a decision of the Tax Court. That
comports with TAX COURT RULE 190(b), which
characterizes an “order granting or denying a motion to
restrain … collection” as a “decision of the Court for
purposes of appeal.” Venue lay with the Eleventh
Circuit because Highpoint maintained its principal
place of business in Florida at the time of its Petition.
The parties filed their briefs, and a three judge
panel heard oral arguments in Atlanta, Georgia on
May 16, 2019. On July 24, 2019, the panel issued its
Opinion affirming the July 17, 2017 Tax Court Order.
The Court concluded that the valuation-misstatement
penalty at issue was triggered by the partnership-level
determination that Arbitrage lacked economic
substance and related to an adjustment to a
partnership item. The Court excluded the penalty from
the Tax Court’s partner-level deficiency jurisdiction
under 26 U.S.C. § 6230(a)(2)(A)(i).
Highpoint files this Petition for Writ of Certiorari
within 90 days of the Eleventh Circuit opinion.

4

Section 6214(a) bestows foundational jurisdiction upon the Tax
Court in deficiency proceedings to determine “additions to tax”,
which include penalties. See 26 U.S.C. § 6665.

11
REASONS FOR GRANTING THE PETITION
This case raises serious questions about the
supremacy of the Supreme Court, the fluidity of the
plain meaning doctrine, and the endorsement of an
algebraically absurd sequence. Three points frame
those concerns: (i) 26 U.S.C. § 6664(c) bars imposition
of, among others, the basis-specific 26 U.S.C. § 6662(e)
penalty in the face of “reasonable cause”; (ii) the basisspecific penalty is imposed upon the tax deficiency
resulting from a basis determination; and (iii) here,
that basis, any resulting loss, and any resulting
deficiency must still be determined based on partnerlevel facts in the Tax Court partner-level proceeding.
Justice Scalia confirmed in Woods, 571 U.S. at 42,
that “Each partner’s outside basis [in his partnership
interest] … must be adjusted at the partner level before
the penalty can be imposed.” Justice Scalia, no
stranger to the plain meaning doctrine, determined the
proper sequence after reconciling all of the implicated
statutes – including 26 U.S.C. § 6664(c).
Without citing Justice Scalia’s description of that
practical sequence or the 26 U.S.C. § 6664(c) reasonable
cause prohibition, the Tax Court and Eleventh Circuit
reversed the sequence under the banner of the “plain
meaning” doctrine. That sequence reversal overrides
this Court’s reconciliation of the implicated statutes and
endorses the algebraically absurd imposition of the
basis penalty before determining the basis or any
resulting tax deficiency: Unknown Z x 40% = .4
Unknown Penalty. If opposite sequences somehow flow
from the same “plain meaning,” the doctrine affecting
every statute requires greater definition.

12
Justice Scalia’s practical sequence fulfills the
Congressional design of the Tax Equity and Fiscal
Responsibility Act of 1982 (“TEFRA”) by streamlining
the partnership/partner process and eliminating the
multiplicity of proceedings. That sequence also ensures
that the IRS at least accurately calculate (if not
accurately assert) any penalty and does not require the
taxpayer to pay systemically overstated amounts.
Above all else, the practical sequence provides the
partner the opportunity to assert his partner-level
defenses to the basis penalty in the same proceeding as
the basis determination.
As the age of this 1999 case proves, the TEFRA
Partnership Procedures (and its 2018 successor)
already unmercifully delay by decades the final answer
for those partners whose partnerships have been
audited – without adding the further delays and
expense by requiring a fragmented, duplicative refund
trial for those who can pay the (overstated) penalty
within six months of the IRS demand or the
fragmented, duplicative Collection Due Process trial for
those who cannot pay the inaccurate penalty. Stiffarming trial of the “reasonable cause” bar to the
prematurely imposed basis penalty by 20 to 30 years
works a greater absurdity.
The IRS is quick to prejudice the Court with
pejoratives but reversing this Court’s statutory
reconciliation threatens all of the businesses among the
more than 3.7 million partnership returns recently
reported as filed in 2016. See IRS Publication 5338.
The threat of duplicative partner proceedings hovering
over their 28.2 million partners should unnerve
citizens, the Commissioner, and the Courts.

13
A. CONGRESS SOUGHT TO STREAMLINE –
NOT MULTIPLY – PROCEEDINGS.
Congress enacted the Tax Treatment of Partnership
Items Act of 1982, as Title IV of TEFRA, to ensure
consistent treatment of partnership items on the
individual partners’ returns and promote judicial
economy by eliminating duplicative proceedings. See
H.R. Conf. Rep. 97-760 (1982) at 599. Writing for a
unanimous Court, Justice Scalia began Woods “with a
brief explanation of the statutory scheme for dealing
with partnership-related tax matters.” 571 U.S. at 38.
As Justice Scalia explained, any adjustments to
partnership items must be made first in a partnershiplevel proceeding addressing matters relevant to all of the
partners. Only after that partnership-level proceeding
can adjustments be made at the individual partner level:
A partnership does not pay federal income taxes;
instead, its taxable income and losses pass
through to the partners. A partnership must
report its tax items on an information return
and the partners must report their distributive
shares of the partnership’s tax items on their
own individual returns. Before 1982, the IRS
had no way of correcting errors on a
partnership’s return in a single, unified
proceeding. Instead, tax matters pertaining to
all the members of a partnership were dealt
with just like tax matters pertaining only to a
single taxpayer: through deficiency proceedings
at the individual-taxpayer level. Deficiency
proceedings require the IRS to issue a separate
notice of deficiency to each taxpayer, who can
file a petition in the Tax Court disputing the

14
alleged deficiency before paying it. Having to
use deficiency proceedings for partnershiprelated tax matters led to duplicative
proceedings and the potential for inconsistent
treatment of partners in the same partnership.
Congress addressed those difficulties by
enacting the Tax Treatment of Partnership
Items Act of 1982, as Title IV of the Tax Equity
and Fiscal Responsibility Act of 1982 (TEFRA).
Under TEFRA, partnership-related tax matters
are addressed in two stages. First, the IRS must
initiate proceedings at the partnership level to
adjust “partnership items,” those relevant to the
partnership as a whole. It must issue [a Notice
of Final Partnership Administrative
Adjustments] notifying the partners of any
adjustments to partnership items, and the
partners may seek judicial review of those
adjustments.
Once the adjustments to
partnership items have become final, the IRS
may undertake further proceedings at the
partner level to make any resulting
“computational adjustments” in the tax liability
of the individual partners. Most computational
adjustments may be directly assessed against
the partners, bypassing deficiency proceedings
and permitting the partners to challenge the
assessments only in post-payment refund
actions.
Deficiency proceedings are still
required, however, for certain computational
adjustments that are attributable to “affected
items,” that is, items that are affected by (but
are not themselves) partnership items.

15
This Court wrestled in Woods with whether a
partnership-level proceeding should address the 26
U.S.C. § 6662(h) basis penalty5 the IRS sought to
impose on the partner’s outside basis in his or her
partnership interest because, as this Court wrote,
outside basis undeniably constitutes a partner-level
item that can only be adjusted in the partner-level
proceeding. The law attributes that basis to the assets
distributed to the partners upon their redemption of
their partnership interest, and impacts the gain or loss
the partners report on their returns upon their
partner-level sale of those assets.
That reality triggers three critical points under the
statutes reconciled by this Court in Woods. One, the
determination of the existence of the partnership is
absolutely a “partnership item” but, as this Court held
in Woods, the “applicability” of a penalty relating to
that partnership item must be determined in the
partnership proceeding only on a “provisional” basis.
Two, as this Court also held in Woods, the outside basis
attributed to the distributed assets must be determined
at the partner level before the basis-specific penalty can
be imposed. And, three, the IRS Partnership Notice
disregarded the partnership and deemed the partners
to have directly acquired the distributed assets. Hence,
they acquired a cost basis in those assets. That cost
basis underscores the double barrel wisdom of the
Woods sequence.
5

To be precise, 26 U.S.C. § 6662(b)(3) asserts a penalty on
“substantial valuation misstatements,” (e)(1)(A) parenthetically
includes “(adjusted basis of any property)”, and (h) then applies a
penalty equal to 40 percent of the tax attributable to any
substantial valuation misstatement over a heightened threshold.

16
B. “EACH PARTNER’S OUTSIDE BASIS ... MUST
BE ADJUSTED AT THE PARTNER-LEVEL
BEFORE THE PENALTY CAN BE IMPOSED.”
After being barred for 16 years from presenting its
partner-level reasonable cause facts, Highpoint
received the Partner-Level Notice. At last, Highpoint
could defend itself against the 40 percent partner-level,
basis-specific penalty and do so in the same partnerlevel Tax Court proceeding that would determine that
same partner-level Euro basis.
Or so Highpoint thought.
Highpoint never
imagined that the IRS could violate the 26 U.S.C.
§ 6664(c) prohibition against imposing a penalty in the
face of reasonable cause. Highpoint knew the partnerlevel Tax Court proceeding was required to determine
the basis in the Euros Highpoint sold but never
imagined the Tax Court somehow could not consider
either the basis-specific deficiency penalty or
Highpoint’s reasonable cause for reporting that basis
on its return. Highpoint never imagined that the
instrument for streamlining partnership/partner
proceedings, the TEFRA Uniform Partnership
Procedures, would be construed as requiring at least
one, if not two, fractured, duplicative additional
proceedings. And in its wildest dreams, Highpoint
never conceived that the Supreme Court’s recognition
of the only practical sequence – determining the basis
before imposing the basis penalty – would be ignored in
favor of this algebraically absurd reversal:
Undetermined Def. on Undetermined Basis
X 40%
.4 Undetermined Penalty

17
No one can properly solve the penalty variable
without first determining the partner-level deficiency
(on which that 40 percent penalty is based) in the
ongoing partner-level deficiency proceeding. And no
one can properly solve the deficiency variable without
first solving the outside basis, the cost basis in the
Euros, and the resulting capital gain or loss in the
ongoing partner-level deficiency proceeding.
What confuses many people is the incomplete
thought that disregarding the partnership means the
partner has no partnership interest and thus no
outside basis. True enough, but that begs the question
– what is the Euro cost basis, how many Euros did the
partner sell, in what year? Those partner basis
questions require the Tax Court partner proceeding.
The Partner-Level Notice simply ignores any cost
basis in the Euros despite the reality that Highpoint
purchased the AIG Euro options contributed to
Arbitrage (along with its cash contribution) and the
IRS FPAA determined that Highpoint is deemed to
directly acquire the separate Euros Arbitrage
distributed to it. Those Euros did not come free and
their cost basis must be finally determined in the
pending partner-level Tax Court proceeding.
That still undetermined cost basis in the Euros will
impact the still undetermined gain or loss upon their
sale; that still undetermined gain or loss will impact
the still undetermined deficiency; and that unknown
deficiency is required to calculate the still
undetermined basis-specific penalty. The only known
certainty about the penalty the IRS plucked, assessed,
and demanded is just this: it is wrong.

18
Justice Scalia, renowned for statutory construction,
reconciled all the implicated statutes which led the
Court to conclude that basis must be determined before
the basis penalty can be imposed. That statutory
jurisdictional analysis begins with Congress
recognizing in 1997 that some penalties flow from
partnership level activity. Prior to that point, all
penalties constituted partner-level “affected items”
reserved for the partner-level affected item proceeding
even where the error related to a partnership item.
Consequently, Congress amended 26 U.S.C. §§ 6221,
6226(f), and 6230(a)(2) to move the “applicability” of a
penalty “that relates to an adjustment to a partnership
item” to the partnership level:
6221

... the tax treatment of any partnership item
(and the applicability of any penalty,
addition to tax, or additional amount which
relates to an adjustment to a partnership
item) shall be determined at the partnership
level.

6226(f)

SCOPE of JUDICIAL REVIEW.— A court with
which a petition is filed in accordance with
this section shall have jurisdiction to
determine all partnership items of the
partnership for the partnership taxable year
to which the notice of final partnership
administrative adjustment relates, the
proper allocation of such items among the
partners, and the applicability of any
penalty, addition to tax, or additional amount
which relates to an adjustment to a
partnership item.

19
6230(a)

C OORDINATION
PROCEEDINGS.—

WITH

DEFICIENCY

(1) IN GENERAL.— Except as provided in
paragraph (2) or (3), subchapter B of this chapter
shall not apply to the assessment or collection of
any computational adjustment,
(2) DEFICIENCY PROCEEDINGS TO APPLY IN.—
(A)
Subchapter B shall apply to any
deficiency attributable to—
(i) affected items which require partner
level determinations (other than penalties,
additions to tax, and additional amounts that
relate to adjustments to partnership items) ...
(emphasis added).
Notably, Congress limited the penalties in the
partnership proceeding to those relating to
“partnership items” – not to “partnership items” and
“affected items,” and not to all items. Absent reducing
that limitation to surplusage, penalties relating to
partner-level “affected items” remained within the
jurisdiction of the “affected item” proceeding. And that
proceeding invokes the Tax Court deficiency procedures
where, as here, partner-level factual determinations
are required to determine basis. If determining basis
first requires partner-level factual determinations,
then determining the basis penalty also first requires
those same partner-level factual determinations.

20
As Justice Scalia recognized, these TEFRA penalty
amendments invoke the underlying penalty statutes,
including 26 U.S.C. §§ 6662(e) and (h) imposing a
heightened 40 percent penalty on deficiencies
attributable to basis adjustments and 26 U.S.C.
§ 6664(c) barring the “imposition” of penalties in the
face of good faith reasonable cause. Section 6662(e)
defines “substantial valuation misstatement” as “the
value of any property (or the adjusted basis of any
property)” and (h) imposes a 40 percent penalty where
the reported amount is 400 percent of the amount
determined to be correct. Critical to Justice Scalia’s
analysis in Woods (but omitted by the courts below), 26
U.S.C. § 6664(c) good faith reasonable cause bars
“imposing” the penalty in mandatory terms:
(1) IN GENERAL. – No penalty shall be
imposed under this part with respect to any
portion of an underpayment if it is shown that
there was a reasonable cause for such portion
and that the taxpayer acted in good faith with
respect to such portion. (Emphasis added).
As the Eleventh Circuit here and the Supreme
Court in Woods confirmed, the law barred Highpoint
from offering any partner-level defenses in the
partnership proceeding — much less Highpoint’s
partner-level reasonable cause defenses to the basisspecific penalty the IRS Partner Notice later asserted
against the basis Highpoint alone reported on its
return. So how can one reconcile the bar against
asserting reasonable cause and the bar against
imposing the penalty in the face of reasonable cause?

21
This Court drew the dispositive distinction in Woods
between determining the “applicability” of the 26 U.S.C.
§ 6662(h) basis penalty on a “provisional” basis at the
partnership level and only “imposing” the penalty on the
partner after adjusting the outside basis in the partnerlevel proceeding. In that way, the interrelated statutory
steps flow in a logical, straightforward sequence.
Interestingly, the IRS honored that sequence and
distinction in the Partner-Level Notice which serves as
the jurisdictional foundation for this partner-level case,
by including the 26 U.S.C. § 6662(h) basis penalty and
invoking Highpoint’s partner-level defenses. The IRS
then reversed field and abandoned that sequence by
“imposing” the basis penalty via assessment and
collection demands after Highpoint petitioned the
Partner-Level Notice to Tax Court, but before the Tax
Court determined the basis and any resulting deficiency
in the still pending partner-level action.
That IRS reversal in position contravenes the
emphasis this Court placed in Woods upon the partnerlevel “imposition” of the penalty: “penalties for tax
underpayment must be imposed at the partner level,
because partnerships themselves pay no taxes. And
imposing a penalty always requires some
determinations that can be made only at the partner
level.” Id. at 40. (Emphasis in original). It is possible
a partner may not have carried over the significant
errors determined in the partnership-level proceeding
to his own return, or that such errors were not enough
to trigger the penalty, “or if they did, the partner may
nonetheless have acted in good faith with reasonable
cause, which is a bar to the imposition of many
penalties, see § 6664(c)(1).” Id.

22
“Notwithstanding that every penalty must be
imposed in partner-level proceedings after partnerlevel determinations, TEFRA provides that the
applicability of some penalties must be determined at
the partnership level.” Id. 40-41. (Emphasis in
original).
For that reason, “[t]he applicability
determination is … inherently provisional; it is always
contingent upon determinations that the court in a
partnership-level proceeding does not have jurisdiction
to make.” Id. at 41. This Court held “that TEFRA
gives courts in partnership-level proceedings
jurisdiction to determine the applicability of any
penalty that could result from an adjustment to a
partnership item, even if imposing the penalty would
also require determining [partner-level items].” Id.
This Court reiterated the “provisional” nature of
that “applicability” determination and stressed the
partner’s right to present his partner-level defenses:
The partnership-level applicability determination, we stress, is provisional: the court may
decide only whether adjustments properly made
at the partnership level have the potential to
trigger the penalty. Each partner remains free
to raise, in subsequent, partner-level
proceedings, any reasons why the penalty may
not be imposed on him specifically. Id. at 41-42.
In Woods, the District Court did not have the authority
to adjust the basis at the partnership level, but it could
still determine the provisional applicability of a
partnership item penalty based on the adjustments it
did have the authority to make as part of the
partnership-level proceeding.

23
This Court concluded, “Each partner’s outside basis
still must be adjusted at the partner level before the
penalty can be imposed, but that poses no obstacle to a
partnership-level court’s provisional consideration of
whether the economic-substance determination is
legally capable of triggering the penalty.” Id. at 42.
Consistent with the Woods sequence, the Tax Court
undeniably possesses continuing partner-level penalty
jurisdiction – especially where it relates to penalties
asserted by a partner-level Notice of Deficiency against
a partner-level “affected item”:
*

First, traditional Tax Court plenary jurisdiction still
includes penalty jurisdiction. See 26 U.S.C. §§ 6213
(Tax Court jurisdiction over “additions to tax”
asserted by Notice of Deficiency), 6665 (“[T]he
penalties provided by this chapter … shall be
assessed, collected, and paid in the same manner as
taxes”), 7442 (incorporates Tax Court jurisdiction
found elsewhere in Title 26).

*

Second, the Tax Court has exercised its partnerlevel penalty jurisdiction at the request of the IRS.
Meruelo v. Commissioner, 132 T.C. 355 (2009), aff’d,
691 F.3d 1108 (9th Cir. 2012).

*

And third, even the IRS and Eleventh Circuit
recognize that the Tax Court possesses partnerlevel penalty jurisdiction in CDP cases.

Hence, the practical sequence recognized by this Court
in Woods comports with the Tax Court jurisdiction to
determine the partner-level basis before “imposing” the
partner-level basis-specific penalty.

24
C. THE DICKENSIAN ABSURDITY DOES NOT
CURE THE ALGEBRAIC ABSURDITY.
As Highpoint enters its third decade of litigation
reminiscent of Dickens’ Bleak House, the “cure” which
the IRS pressed on the Eleventh Circuit is that
Highpoint should start one of two different new cases
duplicative of the pending partner-level deficiency
proceeding. The Eleventh Circuit opinion reasons that
the acknowledged algebraic absurdity is somehow an
acceptable “absurdity” under the plain meaning
doctrine because “there are at least two other partnerlevel proceedings available in which the appropriate
deficiency and precise amount of the penalty can be
determined – CDP proceedings or refund proceedings.”
Highpoint v. Commissioner, 931 F.3d 1050, 1060, n.9
(11th Cir. 2019). Lack of money forces Highpoint onto
the deferred Collection Due Process path which, while
providing some ultimate access to justice, remains
delayed, complex, expensive, and at war with the
Congressional purpose of streamlining procedures.
Highpoint must wait for the IRS to begin its collection
process at some point during the 10 year limitations
period following the 2016 assessment (26 U.S.C.
§ 6502) before Highpoint can assert any of its partnerlevel defenses – justice delayed, memories faded,
resources wasted senselessly.
The partner-level 1999 reported basis, 1999 asset
cost basis facts, and 1999 authorities in the now
pending partner-level Tax Court deficiency trial will be
the same in the basis-specific penalty trial – with those
facts and authorities supplying the 1999 reasonable
cause defenses. That duplication collides with the
overarching Congressional TEFRA purpose.

25
Under the banner of plain meaning, the IRS
persuaded the Tax Court and Eleventh Circuit to reverse
the practical sequence this Court recognized from its
reconciliation of all the implicated statutes. One cannot
long wonder how plain the meaning may or may not be
when respected courts read the same statutes to convey
opposite sequences and when one sequence ignores the
statutory “partnership item” limitation and renders an
algebraic absurdity.
The seminal “plain meaning” case remains United
States v. American Trucking Ass’ns, 310 U.S. 534, 542
(1940), where this Court outlined this analysis:
There is, of course, no more persuasive evidence of
the purpose of a statute than the words by which
the legislature undertook to give expression to its
wishes. Often these words are sufficient in and of
themselves to determine the purpose of the
legislation. In such cases we have followed their
plain meaning. When that meaning has led to
absurd or futile results, however, this Court has
looked beyond the words to the purpose of the act.
Frequently, however, even when the plain
meaning did not produce absurd results but
merely an unreasonable one ‘plainly at variance
with the policy of the legislation as a whole’ this
Court has followed that purpose, rather than the
literal words. American Trucking at 543.
The reversed sequence violates all four elements: (i) not
plain, (ii) creates algebraic absurdity, (iii) requires
“futile” CDP administrative proceeding, and (iv) adds
duplicative proceedings at war with overarching
legislative policy.

26
The reversed sequence reduces the “partnership
item” limitation to surplusage and creates the algebraic
absurdity. The Dickensian duplicative “cure” inflicts
more harm than the ailment. Forced down the CDP
path by lack of money, Highpoint must ask just how
plain can the “plain meaning” doctrine be, if it requires
a 2006 CDP statutory amendment to retroactively cure
the algebraic absurdity the reversed sequence
attributes to the 1997 TEFRA amendments?
Highpoint has no control over how many more years
will pass before that CDP process can be started. The
partner must wait for the Secretary to file a lien or levy
his property. The IRS has ten years from assessment to
take those actions. 26 U.S.C. § 6502. The partner then
must timely file a request for a CDP Administrative
Hearing under 26 U.S.C. §§ 6230(b) and 6330(b). The
IRS prior penalty determination renders that IRS
hearing (which the partner must attend) a futile,
foregone conclusion. To contest that conclusion, the
taxpayer has 30 days to “petition the Tax Court for the
review of such determination.” 26 U.S.C. § 6330(d)(1).
Only then, the CDP litigation begins.
Congress did not amend 26 U.S.C. § 6330(d) until
2006. It granted the Tax Court sole jurisdiction over
CDP, in lieu of the District Court requiring full
payment as a prerequisite. The Tax Court first applied
the 2006 expansion of its jurisdiction to partner-level
penalties in 2017 – 20 years after the 1997 TEFRA
amendments. The CDP “cure” cannot retroactively
create a “plain meaning” nor condition the punitiveprotection right to trial upon the cruel delay of starting
the duplicative partner reasonable-cause proceeding 20
to 30 years after the fact.

27
D. TRADITIONAL TAX COURT JURISDICTION
CONTINUES TO COVER A PARTNER
PENALTY RELATING TO PARTNER ITEMS.
The foundational Tax Court jurisdiction survives.
In 1924, Congress created the predecessor to the Tax
Court, the Board of Tax Appeals, to provide the
fundamental fairness of allowing citizens to contest
IRS assertions they believe to be wrong on a prepayment basis before the IRS imposes its claims. This
prepayment forum ensures equal access to the judicial
review of the proposed governmental taking of private
property, and advances the constitutional protection
that no person be deprived of property without the due
process of law. The Supreme Court stressed the
importance of this right in Flora v. United States, 362
U.S. 145, 159 (1960) , by quoting the House Ways and
Means Committee Report:
The committee recommends the establishment
of a Board of Tax Appeals to which a taxpayer
may appeal prior to the payment of an
additional assessment of income, excess-profits,
war-profits, or estate taxes.
Although a
taxpayer may, after payment of his tax, bring
suit for the recovery thereof and thus secure a
judicial determination on the questions involved,
he cannot … secure such a determination prior
to the payment of the tax. The right of appeal
after payment of the tax is an incomplete remedy,
and does little to remove the hardship occasioned
by an incorrect assessment. … He is entitled to
an appeal and to a determination of his liability
for the tax prior to its payment. Id. at 158-9
(emphasis added).

28
Based on these principles, Congress provided an
extensive set of prepayment “deficiency” procedures
under Subchapter B of the Code for citizens to contest
IRS claims in Tax Court. That foundational Tax Court
deficiency jurisdiction continues to provide taxpayers
a pre-payment forum to contest income, gift, and estate
tax deficiencies and penalties asserted by the IRS in a
Notice of Deficiency.
Tax Court plenary jurisdiction begins with 26
U.S.C. § 7442 which bestows jurisdiction found
elsewhere in Title 26. In turn, 26 U.S.C. § 6214(a)
provides the foundational jurisdiction over deficiency
proceedings – including “additions to tax.” Additions to
tax include the 26 U.S.C. § 6662 penalty at issue here
under 26 U.S.C. § 6665, which states that “any
reference in [the Code] to ‘tax’ imposed by [the Code]
shall be deemed also to refer to the … penalties
provided by this chapter.” Section 6212 requires that
the IRS generally issue a “notice of deficiency” before
pursuing claims for income, estate, gift, and certain
other tax deficiencies and additions to tax which 26
U.S.C. § 6665 extends to the 26 U.S.C. § 6662 penalty.
(“[T]he … penalties provided by this chapter … shall be
assessed, collected, and paid in the same manner as
taxes … .”). 26 U.S.C. § 6213(a) then grants the
taxpayer the right to contest that notice in Tax Court
by timely filing a Petition.
See Pearson v.
Commissioner, 149 T.C. 424, 428 (2017) (“The Court’s
jurisdiction in a deficiency case depends on the
issuance of a valid notice of deficiency and a timely
filed petition.”).

29
CONCLUSION
Trite but true, justice delayed is justice denied.
Only Justice Scalia’s practical sequence fairly
reconciles the implicated statutes, serves the
Congressional anti-duplicative proceeding purpose, and
cures both the algebraic absurdity and the Dickensian
absurdity. The supremacy of this Court’s statutory
reconciliation and the “plain meaning” doctrine deserve
better than the reversed sequence. For these reasons,
we respectfully submit that the petition for writ of
certiorari should be granted.
Respectfully submitted,
DAVID D. AUGHTRY
Counsel of Record
CHAMBERLAIN, HRDLICKA,
WHITE, WILLIAMS & AUGHTRY
191 Peachtree Street, 46th FL
Atlanta, Georgia 30303-1747
Phone: (404) 659-1410
david.aughtry@chamberlainlaw.com
Attorney for Petitioner
OCTOBER 22, 2019

